OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/JORDAN’S
DESIGN FOR SUSTAINABILITY
IN ITS WATER RESOURCES
PROGRAM


AUDIT REPORT NO. 6-278-12-002-P
DECEMBER 22, 2011



CAIRO, EGYPT

Office of Inspector General


December 22, 2011

MEMORANDUM

TO:       	          USAID/Jordan Director, Beth Paige

FROM: 	              Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	            Audit of USAID/Jordan’s Design for Sustainability in its Water Resources
                     Program (Report No. 6-278-12-002-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft and have included them in Appendix II.

The report includes seven recommendations to USAID/Jordan. In response to the draft report,
USAID/Jordan officials agreed with all recommendations. As a result, management decisions
have been reached on all seven recommendations. The mission should provide the Audit
Performance and Compliance Division of USAID’s Office of the Chief Financial Officer with
evidence of final action to close all recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Ahmed Kamel off El-Laselki St.
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     USAID/Jordan Did Not Develop Conditions Precedent to Ensure 

     Sustainability of its Water Program Activities .......................................................................... 5 


     USAID/Jordan Did Not Design Projects to Reduce Agriculture Sector 

     Demand for Water ................................................................................................................... 6 


     USAID/Jordan Did Not Update the Water Resource Program Performance 

     Management Plan ................................................................................................................... 8 


     USAID/Jordan Did Not Prepare Timely Contractor Performance Reports ............................ 10 


Evaluation of Management Comments................................................................................... 12 


Appendix I—Scope and Methodology .................................................................................... 13 


Appendix II—Management Comments ................................................................................... 15 


Appendix III—USAID/Jordan’s Water Resources and Environment Sector 

Cash Transfer Program and Budget Information................................................................... 19 


Appendix IV— USAID/Jordan’s Water Resources and Environment Sector 

Activities as of June 30, 2011 .................................................................................................. 20 


Appendix V— Jordan’s Water and Environment Sector 

Conditions Precedent for Cash Transfer Program as of August 2011 ................................ 23 


Appendix VI— USAID Foreign Assistance Planning ............................................................. 25 


Appendix VII— Status of USAID/Jordan's Water Resources and Environment Sector 

Contractor Performance Reports as of June 30, 2011 .......................................................... 26 


The following abbreviations appear in this report:

ADS             Automated Directives System
CDCS            Country Development Cooperation Strategy
COTR            contracting officer’s technical representative
FAR             Federal Acquisition Regulation
FY              fiscal year
MWI             Ministry of Water and Irrigation
OAA             Office of Acquisition and Assistance
PMP             performance management plan
RIG             Regional Inspector General
WAJ             Water Authority of Jordan
WRE             Water Resources and Environment Office
SUMMARY OF RESULTS 

Since 1952, the U.S. Government, through USAID/Jordan, has provided approximately
$6 billion in economic assistance to the Hashemite Kingdom of Jordan, half that amount
allocated after fiscal year (FY) 2002. In recent years, assistance has taken many forms,
including cash transfers and development programming in certain sectors.

Over the past 5 years, USAID/Jordan has provided Jordan approximately $1 billion for debt
relief through a cash transfer program.1 Under the cash transfer program, the United States
provides the Government of Jordan foreign currency to pay down debts owed to the U.S.
Government and other entities, such as the International Monetary Fund and the World Bank.
The U.S. Government links the cash transfers to policy reform objectives in Jordan’s water,
environment, health, and economic sectors. When the Government of Jordan achieves the
policy reforms, known as conditions precedent, USAID/Jordan transfers cash to the
Government of Jordan. Table III-1 in Appendix III presents data on cash transfers.

In the way of development programming, USAID/Jordan has made water a cornerstone of its
country strategy. As envisioned by its Water Resources and Environment Office (WRE), the
mission developed a country strategy to focus on infrastructure and technical assistance
projects designed to increase the availability of water and improve water management.
Because of depletion of nonrenewable water resources and projected population growth, Jordan
faces a severe water shortage. The World Health Organization has noted that Jordan “has one
of the lowest levels of water resource availability, per capita, in the world.”2 To alleviate water
scarcity, the Government of Jordan has focused on options such as redistribution and
desalination.3

Accordingly, on September 17, 2007, USAID/Jordan entered into an agreement with the
Government of Jordan to improve water and wastewater infrastructure, water conservation and
efficiency, and policy. At that time, the mission obligated approximately $25 million for the
Government of Jordan to enhance the productivity of agriculture per unit of water, support new
initiatives to reuse wastewater, improve water efficiency, promote multiple uses of water, and
provide solutions to address water quality and conservation. As of July 2011, USAID/Jordan
had developed 19 water projects that included water and wastewater infrastructure, water reuse
and environmental conservation, water demand management, community-based initiatives for
water demand management, construction supply, and information technology master plans.

The end date and the budget changed after the agreement was signed.                 Although
USAID/Jordan expected the water program activities to end by September 30, 2011, the
mission amended the agreement, increasing the funding and extending the time for completion
of program activities to September 30, 2014.           Specifically, on September 29, 2010,
USAID/Jordan increased its obligation for its water program from $25 million to $186 million.
According to mission officials, officials decided to extend the program and increase funding
because of Government of Jordan and USAID estimates of time required to complete activities.
1
  USAID/Jordan also provided a cash transfer of $700 million to the Government of Jordan in fiscal year 

2003 to help offset the effects of war in Iraq.

2
  The World Health Organization and the United Nations Environment Programme, The Health and 

Environment Linkages Initiative, “Water, health and ecosystems,” 

 http://www.who.int/heli/risks/water/water/en/index.html, accessed on November 16, 2011.

3
  Desalination is the process of removing salt, especially from seawater, for drinking or irrigation use.


                                                                                                      1
Then at the request of the Jordanian Ministry of Planning and International Cooperation
because of political changes in the region, USAID/Jordan reduced its budget for water activities
and transferred funds to its economic growth program activities in June 2011, resulting in a
decrease in the water program budget of $67 million as shown in Table III-2, Appendix III. The
mission’s current water program activities are listed in Appendix IV.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit to determine whether
USAID/Jordan built sustainability into its water resources program to ensure that impact
continues after USAID funding ceases.

USAID/Jordan’s water program has achieved notable successes. For example, the construction
of a desalination plant, a water demand project, and a community-based initiative for water
demand management designed to increase the availability of water and improve water
efficiency have benefited over 1 million people in the cities of Amman and Jerash. Details of
these successes follow:

	 Construction of the Zara Ma’in Desalination Plant (parts of which are pictured below),
   operated by a government-owned water company, Miyahuna, makes it possible to
   desalinate surface water from raw water sources (hot springs captured by water dams) that
   flow to the Dead Sea.




 This is one of six pumping stations at the     Water passes through reverse osmosis
 Zara Ma’inDesalination Plant that conveys      membranes that are used to remove dissolved
 potable water from the plant to Amman.          impurities from water at the Zara Ma’in
 (Photo by RIG/Cairo, June 30, 2011)             Desalination Plant. (Photo by RIG/Cairo,
                                                 June 30, 2011)

	 The Water Demand Management Project enabled the Government of Jordan to codify the
   water efficiency plumbing code as regulation and established water efficiency standards and
   technical regulations for water fixtures and appliances.

	 The Community-Based Initiative for Water Demand Management Project provided
   microloans to households and schools to develop and implement water-saving and water
   efficiency projects such as purchasing water tanks and building cisterns as pictured on the
   following page.


                                                                                               2
Cisterns are built as part of the Community-based Initiative for Water Demand Project. (Photos by
RIG/Cairo, June 29, 2011)




    This cistern is being built under the foundation   Cistern construction in the foundation of this
    of a house. (Photo by RIG/Cairo, June 29,          house is complete. (Photo by RIG/Cairo,
    2011)                                              June 29, 2011)

However, despite the successes achieved by USAID/Jordan, some of the mission’s projects to
assist the Jordanian water sector may not be sustainable after USAID funding ceases because
the projects have not addressed Jordan’s main water management concerns—specifically,
water consumption by Jordan’s agriculture sector. According to United Nations data, as the
largest primary consumer of water in Jordan, the agriculture sector accounts for approximately
65 percent of total water consumption but contributes only about 3 percent to the country’s
gross domestic product, the value of overall output of goods and services.4

Although some USAID/Jordan officials believe that some of the successes of the mission’s
water projects will be sustained when funding ceases, some implementers and beneficiaries
disagree. In fact, Jordan’s Minister of Water and Irrigation stated that current USAID-funded
water projects would not be sustainable unless USAID continues to provide money to help the
Government of Jordan maintain momentum and project advances. Some implementers believe
that the inefficient use of water by the agriculture sector, misuse of nonrenewable water, and the
lack of water policy enforcement have hampered sustainable solutions for Jordan’s water
scarcity.

4
 Food and Agriculture Organization of the United Nations, Irrigation in the Middle East region in figures–
AQUASTAT Survey 2008, Jordan.

                                                                                                        3
The audit found that USAID/Jordan did not:


   Develop conditions precedent to ensure sustainability of its water program activities

    (page 5).

   Design projects to reduce agriculture sector demand for water (page 6).

   Update the performance management plan for the water resources program (page 8).

   Prepare timely contractor performance reports (page 10).

This audit recommends that USAID/Jordan:

1. 	 Review and revise its water strategy to determine whether the mission could achieve
     greater success by reprogramming funds to priority projects, and document the resultant
     revisions (page 6).

2. 	 Implement a plan to revise the cash transfer and conditions precedent program to better
     leverage sustainable development results (page 6).

3. 	Review water resource and environment projects that may address the use of water by
    Jordan’s agriculture sector and document mission decisions to include or exclude projects
    from the mission’s portfolio (page 8).

4. 	 Review its water projects and document decisions to support water projects that do not have
     Government of Jordan commitment (page 8).

5. 	 Develop and implement a performance management plan to track achievement of the water
     resources assistance objective (page 10).

6. 	 Submit a written request to USAID’s Office of Acquisition and Assistance to provide training
     to mission employees on the Contractor Performance Assessment Reporting System and
     establish and implement a plan to train employees (page 11).

7. 	 Implement a plan to complete the required contractor performance reports (page 11).

Appendix I contains information on the scope and methodology. Detailed findings are included
in the sections that follow. Management comments are included in their entirety in Appendix II,
and our evaluation of management comments is included on page 12 of the report.




                                                                                               4
AUDIT FINDINGS 

USAID/Jordan Did Not Develop
Conditions Precedent to Ensure
Sustainability of Program Activities
The Foreign Assistance Act of 1961, Section 101—General Policy, as codified at 22 U.S.C.
2151, Part 1, Chapter 1, “Policy; Development Assistance Authorizations,” states that one of the
five principal goals of U.S. development cooperation should be to promote conditions enabling
developing countries to achieve self-sustaining economic growth with equitable distribution of
benefits. In addition, USAID’s Automated Directives System (ADS) 201.1.c, “Planning
Overview,” states that during the design phase of projects, USAID should keep the ultimate goal
of sustainability in mind, and projects should have an exit strategy. In addition, ADS 201.3.4.2,
“Role of Partners, Customers, and Stakeholders,” states that while developing a long-term
assistance strategy, USAID should work closely with host-country counterparts expected to play
a role in implementation of the plan to help ensure that plans address perceived development
problems, are achievable, and produce sustainable benefits after termination of USAID funding.

The Government of Jordan has implemented several activities that do not align with
USAID/Jordan’s water activities to improve water security for the Jordanian people and their
livelihoods. The Government of Jordan has implemented projects to alleviate water scarcity
through redistribution and desalination. For example, the Government of Jordan designed a
project to pump water from deep aquifers and the Red Sea. However, the Government of
Jordan has not adequately addressed demand management.

From September 2007 to September 2010, USAID/Jordan developed 20 conditions precedent
to effect water policy reforms. These policy reforms included:

	 The Government of Jordan closing illegal wells in the Amman-Zarqa and Azraq
   groundwater basins.

	 Miyahuna, a Jordanian water company owned by the Water Authority of Jordan, beginning
   implementation of a plan to recover the full costs of the Miyahuna potable water system.

	 Miyahuna awarding three contracts to address the issue of nonrevenue (illegally extracted)
   water.

	 The Government of Jordan publicizing the national water allocation plan in the mass media
   and on the Ministry of Water and Irrigation Web site with twice yearly updates.

As of August 2011, the mission had developed 31 conditions precedent related to the water and
environment sector for the Government of Jordan to implement, listed in Appendix V. However,
the conditions precedent do not require the Government of Jordan to make any significant
changes that address water use in the agriculture sector.

Conditions precedent have not focused on water use in the agriculture sector because the topic
is politically sensitive. Mission officials noted that during negotiations over the draft list of
conditions precedent, Government of Jordan officials requested that mission staff remove one

                                                                                               5
condition. It required the Government of Jordan to shut down 50 illegal wells. Although closing
the illegal wells would increase Jordan’s water sustainability by decreasing nonrevenue water,
Government of Jordan officials could not achieve the condition precedent because of political
pressure from influential agribusiness owners.

Since USAID/Jordan’s economic growth strategy incorporates the conditions precedent, the
mission should ensure that the conditions precedent include reforms needed to ensure that
achievements are sustained when USAID funding ceases. To address this concern, this audit
makes the following recommendations.

   Recommendation 1. We recommend that USAID/Jordan review and revise its water
   strategy to determine whether the mission could achieve greater success by
   reprogramming funds to priority projects, and document the resultant revisions.

   Recommendation 2. We recommend that USAID/Jordan implement a plan to revise
   the cash transfer and conditions precedent program to better leverage sustainable
   development results.

USAID/Jordan Did Not Design
Projects to Reduce Agriculture
Sector Demand for Water
According to the Foreign Assistance Act of 1961, Section 102(b)(16)—Development Assistance
Policy, as codified at 22 U.S.C. 2151–1, Subsection (b)(16), U.S. assistance should focus on
establishing and upgrading the institutional capacities of developing countries to promote long-
term development. As a component, institution building through training is expected to expand
the human resource potential of people in developing countries. In addition, ADS 201.3.4.2,
“Role of Partners, Customers, and Stakeholders,” states that while developing a long-term
assistance strategy, USAID should work closely with host-country counterparts expected to play
a role in implementation to help ensure that plans address perceived development problems,
are achievable, and produce sustainable benefits after termination of USAID funding.

Several reports have been published about the projected water demand for Jordan. In a report
published by USAID/Jordan’s Economic Development Program, the Ministry of Water and
Irrigation stated that the current renewable water supply accounts for only about half the total
water supply in Jordan. Moreover, some groundwater experts have stated that pumping of
groundwater even at safe yields will cause the reduction of natural groundwater outflows.
Furthermore, Ministry of Water and Irrigation forecasts have indicated that water supply in
Jordan will continue to be insufficient to meet total potential demand for the agricultural,
municipal, industrial, and tourism sectors with current production techniques. The ministry
projects Jordan will be able to meet only 68 percent of water demand by 2020 as shown in the
table on the next page.




                                                                                              6
                         Jordanian Ministry of Water and Irrigation’s 

                      Forecast of Water Supply and Demand (unaudited) 

                                    (million cubic meters)

                        Year    Demand      Supply    Shortage   Percentage
                        2015      1,600      1,061      (539)        -34%
                        2020      1,616      1,094      (522)        -32%

                     Source: Ministry of Water and Irrigation’s 2005–2020
                     National Master Water Plan, as cited in Responding to
                     the Water Crisis in Jordan, published by USAID’s
                     Economic Development Program.

Although increased water scarcity is a reality, USAID/Jordan’s water strategy has focused on
increasing the availability of water without addressing the agriculture sector’s use of water. As
the primary consumer of water in Jordan, the agriculture sector accounts for 65 percent of total
water consumption but contributes only 3 percent to the country’s gross domestic product, the
value of overall output of goods and services. Although the agriculture sector is the largest
consumer of Jordan’s water supply, the mission does not have any current projects that address
this sector’s water use. Instead, USAID/Jordan’s WRE strategy focused on funding water
projects valued at approximately $212 million for the urban and industrial sectors during
FY 2011.

USAID/Jordan’s Instituting Water Demand Management in Jordan Project, valued at
$9.8 million, focuses on building institutional capacity for managing water demand in the (1)
national government, (2) nongovernmental sector, and (3) private sector institutions. In
addition, the municipal and industrial sectors account for roughly 35 percent of Jordan’s water
consumption. As of July 14, 2011, the office had not included any projects on its list of activities
to address the agriculture sector’s water usage (Appendix IV).

According to mission officials, USAID/Jordan did not design projects that would include Jordan’s
agriculture sector because of a lack of Government of Jordan and U.S. Government
commitment to enforce agriculture sector policy reforms that have been politically unfavorable.
The sensitivity of such reforms led the mission director in April 2007 to send an e-mail to
mission employees stating that USAID/Jordan would not create a distinct program for water
demand management in the agriculture sector, but would address agricultural issues through its
portfolio of water program activities. Moreover, several mission officials stated that subsequent
mission directors instructed employees not to design projects that would include Jordan’s
agriculture sector. This management decision affected the sustainability of WRE projects
because the projects could not address water use in the agriculture sector.

In June 2011, USAID/Jordan’s Office of Water Resources and Environment proposed a revision
to its water sector strategy to better align with U.S. assistance objectives in Jordan and the
region including changes in programmatic direction and project funding levels. The revised
strategy will gradually replace the existing assistance objective to enhance water resource
management and will refocus on planning and feasibility studies for nonrevenue water, aquifer
management, and capacity building in the Government of Jordan to improve water security for
Jordanian people and their livelihoods. Although the strategy does not address agricultural
water uses, USAID/Jordan mission officials anticipate the revision will improve Government of


                                                                                                  7
Jordan policies and institutions by reducing water demand and increasing supply to high-value
uses.

USAID-funded Jordanian water projects will not be sustainable when USAID funding ceases.
USAID/Jordan’s water program will need to address the agriculture sector to achieve
sustainability. If USAID/Jordan does not address water demand management in agriculture, the
mission’s continued water program activities may be futile. To justify continued USAID funding,
the mission’s water projects will need to address the efficient use of water in the agriculture
sector with a commitment from the Government of Jordan to participate in these efforts. To
address these concerns, this audit makes the following recommendations.

  Recommendation 3. We recommend that USAID/Jordan review water resource and
  environment projects that may address the use of water by Jordan’s agriculture sector
  and document mission decisions to include or exclude projects from the mission’s
  portfolio.

  Recommendation 4. We recommend that USAID/Jordan review its water projects and
  document decisions to support water projects that do not have Government of Jordan
  commitment.

USAID/Jordan Did Not Update the
Water Resource Program
Performance Management Plan
USAID requirements for program management span multiple directives. ADS 203.3.2,
“Performance Management,” requires USAID missions and their assistance objective teams as
the responsible staff to measure progress toward the results identified in the planning stage to
achieve foreign assistance objectives. As defined in the guidance, performance management is
the systematic process of monitoring the achievements of program operations and collecting
and analyzing performance information to track progress toward planned results. Performance
management represents the Agency’s commitment to managing assistance objectives for
results in order to achieve the best possible development outcomes.

ADS 203.3.3, “Performance Management Plans,” requires assistance objective teams to
prepare a complete performance management plan (PMP) for assistance objectives for which
the teams are responsible. The purpose of this requirement is to establish indicators that will
provide accurate baseline data on the initial program or project or activity conditions. As the
project unfolds, the assistance objective team can measure the degree of change.
Furthermore, once the award is executed, the project staff must complete the PMP with relevant
indicators and baseline data before major project implementation actions get under way. In
addition, ADS 201.3.2.3, “Interagency Coordination,” states that a country strategy reflects the
U.S. Government’s commitment to partnership with a host country and summarizes and
prioritizes country-specific foreign assistance goals over a 5-year period. Through the strategy,
a USAID mission provides its vision of how a country will change if an assistance goal is
achieved.

ADS 203.3.3.1, “Contents of a Complete Performance Management Plan,” states that a PMP
should meet the following specific criteria:



                                                                                               8
	 State the full set5 of performance indicators that the assistance objective team will use to
   assess progress throughout the assistance objective.

	 Provide baseline values and targeted values for each performance indicator included in
   the PMP.

	 Specify the source of the data and the method for data collection.

	 Describe known data limitations of each performance indicator and steps to be taken to
   address them.

	 Include a calendar of performance management tasks that an assistance objective team
   will conduct throughout the assistance objective.

USAID/Jordan’s WRE did not develop a PMP for the 2010–2014 country strategy although the
mission finalized its strategy in March 2010. Appendix VI discusses the relationship between
the mission’s country strategy and the PMP. Under the 2010–2014 country strategy, the WRE
is responsible for achieving Assistance Objective 2, “Water Resources Management is
Enhanced,” with two intermediate results: (1) adaptive capacity of the water sector is increased
and (2) management of water resources is more sustainable. In June 2011, the WRE proposed
a draft strategy to replace the two assistance objectives with the following: improve water
security for people and their livelihoods.

The mission currently uses the predecessor PMP linked to the prior country strategy with
outdated and incomplete indicator targets and results. Moreover, USAID/Jordan did not
determine how three of its recent projects contribute to the 2010–2014 country strategy to
achieve Jordan’s water sector assistance objective: (1) Water/Wastewater Infrastructure
Project, initiated in May 2010, (2) Water Reuse and Environment Conservation Project, initiated
in August 2010, and (3) Institutional Support and Strengthening Program, initiated in November
2010. The three projects are valued at $67.4 million.

Although Agency guidance requires a PMP to be developed before major project
implementation, the mission did not prioritize the development of a PMP for its 2010–2014
strategy. Mission officials stated that the WRE was not able to develop a PMP because of a
lack of staffing. USAID/Jordan began updating the PMP early in 2011 with assistance from
USAID/Washington and the mission’s Program Office. WRE officials intended to finalize the
PMP by June 30, 2011, but did not meet the deadline because of the lack of staffing. The
acting WRE director and a contracting officer’s technical representative (COTR) noted that
additional tasks were assigned to employees because of the staff shortage, and the mission
was without a mission director and deputy mission director to provide overall guidance.
Contributing to the lack of capacity was the inexperience of staff members; many had less than
a year of experience in their assigned roles. As a result, the staffing constraints affected the
success of the water resources program.

Without a defined PMP, USAID missions and their assistance objective teams have no
systematic means of measuring progress toward the results identified to achieve foreign
assistance objectives. To address this concern the audit makes the following recommendation.



5
    “Full set” means that one or more indicators are selected for each result in the results framework.

                                                                                                          9
     Recommendation 5. We recommend that USAID/Jordan develop and implement a
     performance management plan to track achievement of the water resources assistance
     objective.

USAID/Jordan Did Not Prepare
Timely Contractor Performance
Reports
USAID and federal regulations require contractor performance evaluations to help provide the
information necessary to make better acquisition decisions and provide incentives to contractors
for superior products and services.

	 USAID’s Acquisition and Assistance Policy Directive 06-05, “Evaluation and Use of
   Contractor Performance Information,” requires that a contractor’s performance be evaluated
   at least annually and on contract completion.

	 Federal Acquisition Regulation (FAR) 36.201, “Evaluation of Contractor Performance,” FAR
   36.604, “Performance Evaluation,” and FAR 42.15, “Contractor Performance Information,”
   require performance evaluations of contracts and orders issued under indefinite quantity
   contracts, Federal Supply Schedule contracts, and governmentwide acquisition contracts (1)
   at least annually (for contracts and orders exceeding a year in duration) and (2) on
   completion of activities when the contracts and orders will exceed specified dollar values.

	   USAID’s Agency Notice Number 20917, June 10, 2011, “Past Performance Reports - COTR
     Requirements and Schedule for Completing Reports,” requires the Agency to set a goal to
     reach 100 percent compliance on past performance reporting and set a date of September
     30, 2011, for all contracts/task orders in excess of $1 million to be registered in the
     Contractor Performance Assessment Reporting System. In accordance with this Agency
     Notice, the COTR designation of any COTR not in compliance with this requirement may be
     revoked.

Although USAID’s goal was to improve its rate of compliance from 10 percent to 100 percent by
September 2011, USAID/Jordan’s regional contracting office and COTRs did not complete 14 of
22 annual contractor performance reports for the mission’s water resources contractors. In
total, the mission staff did not complete 14 contractor performance reports for eight contractors
from 2008 to 2011 in the water resources and environment sector with projects valued at $128
million. Appendix VII shows the contract programs, contract dates, and status of required
contractor performance reports. For example, one of the contractors responsible for
construction oversight on a water infrastructure project valued at $35 million had not received a
contractor performance report since the project began in September 2009. In addition,
USAID/Jordan’s COTRs did not complete three performance reports for a contractor that
implemented a water resources demand management project valued at $10.3 million that began
in March 2008.

According to USAID/Jordan’s former regional contracting officer, mission staff did not complete
the contractor performance reports because USAID’s Office of Acquisition and Assistance
(OAA) did not train the staff on the Agency’s new Contractor Performance Assessment
Reporting System that was launched about a year ago. As a result, mission staff members do
not have access to USAID’s new contractor performance reporting system. Moreover, although
it has been over a year since OAA launched the new system, USAID/Jordan’s former regional

                                                                                              10
contracting officer has not requested training and is not aware of when OAA will provide the
necessary training for mission staff. In two cases, a COTR started, but did not complete, the
contractor performance reports prior to the change in reporting systems.

Regular and comprehensive performance evaluations provide necessary information to make
better acquisition decisions and are significant incentives to contractors to provide USAID with
superior products and services, according to OAA. Source selection officials rely on contractor
performance reports to make informed decisions before binding the U.S. Government in
contractual agreements worth billions of dollars. USAID’s procurement reform emphasizes
strengthening performance monitoring as a means to hold contractors more accountable and
more easily identify what works and why. In fact, USAID has recognized that it has
underperformed in ensuring that contractor performance reports are completed fully and
promptly and has requested all contracting officers and COTRs to make time to work on all
outstanding contractor performance reports. Therefore, this audit makes the following
recommendations.

   Recommendation 6. We recommend that USAID/Jordan submit a written request to
   USAID’s Office of Acquisition and Assistance to provide training to mission employees
   on the Contractor Performance Assessment Reporting System and establish and
   implement a plan to train employees.

   Recommendation 7. We recommend that USAID/Jordan’s regional contracting office
   and contracting officer’s technical representatives implement a plan to complete the
   required contractor performance reports.




                                                                                             11
EVALUATION OF MANAGEMENT
COMMENTS
In response to the draft report, USAID/Jordan officials agreed with all seven recommendations.
As a result, management decisions have been reached on all recommendations. The mission
should provide the Audit Performance and Compliance Division of USAID’s Office of the Chief
Financial Officer with evidence of final action to close all recommendations.

Recommendation 1. USAID/Jordan officials agreed to review and revise its water strategy and
document the results in the mission’s Country Development Cooperation Strategy (CDCS) by
August 22, 2012.      Accordingly, a management decision has been reached on this
recommendation.

Recommendation 2. Mission officials agreed to implement a plan to revise the cash transfer
and conditions precedent program. According to USAID/Jordan officials, the Ambassador has
also requested a review and mission officials plan to complete this review in USAID/Jordan’s
CDCS by August 22, 2012. Therefore, a management decision has been reached on this
recommendation.

Recommendation 3. USAID/Jordan officials agreed to review water resource and environment
projects and document decisions to include or exclude projects from the mission’s portfolio.
Mission officials plan to address this recommendation by completing USAID/Jordan’s CDCS by
August 22, 2012.         Accordingly, a management decision has been reached on this
recommendation.

Recommendation 4. Mission officials agreed to review water projects that do not have
Government of Jordan commitment and document decisions to support those projects in
USAID/Jordan’s CDCS by August 22, 2012. Therefore, a management decision has been
reached on this recommendation.

Recommendation 5. USAID/Jordan officials agreed to develop and implement a performance
management plan for the mission’s water projects by January 31, 2012. Thus, a management
decision has been reached on this recommendation.

Recommendation 6. Mission officials agreed to implement a plan to train employees on the
Contractor Performance Assessment Reporting System and intend to complete all
recommended training by September 30, 2012. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 7. USAID/Jordan’s regional contracting office officials agreed to complete
the required contractor performance reports by January 31, 2012. Therefore, a management
decision has been reached on this recommendation.




                                                                                           12
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this performance audit in accordance with
generally accepted government auditing standards.6 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The audit objective was to determine whether USAID/Jordan built sustainability into its water
resources program to ensure that impact continues after USAID funding ceases. Audit fieldwork
was conducted at USAID/Jordan and USAID/Egypt from June 26 to October 12, 2011. The
audit covered the period from September 17, 2007, to June 30, 2011. The initial estimated
funding amount for water resource programs was approximately $250 million for the 4-year
period from September 17, 2007, to September 30, 2011. Subsequently, USAID/Jordan
modified the agreement, increasing the estimated funding from $250 million to $500 million and
extending the life of the project by 3 years, resulting in a new closing date of September 30,
2014. The audit team judgmentally selected six projects and their implementers for review. The
value of activities judgmentally selected is approximately $112 million, or 53 percent, of about
$212 million of estimated costs for water resource programs, as of June 30, 2011.

In planning and performing the audit, we assessed management controls related to
documentation, reporting, and supervisory and management review at the functional and activity
level, as well as establishment and review of performance measures and indicators. The audit
team also reviewed the management controls in place to monitor project activities. We
conducted the audit through interviews with mission employees and implementers,
observations, and review of reports and files that the mission provided as part of its project
monitoring activities.     Specifically, we obtained an understanding of and evaluated
USAID/Jordan’s agreement with the Government of Jordan, subsequent modifications to the
agreement, the mission’s PMPs, the mission’s FY 2010 Federal Managers’ Financial Integrity
Act assessment, the oversight performed by the contracting officer or COTR, and performance
measures.

Auditors conducted site visits to implementer offices in Amman and Jerash, to community-based
organizations and beneficiaries in Jerash, and to the Zara Ma’in Desalination Plant near the
Dead Sea.

Methodology
To answer the audit objective, we met with personnel from USAID/Jordan, officials from
implementers (AECOM; Camp, Dresser and McKee; Development Alternatives, Inc.; Sorensen
Gross Construction Company; Mercy Corp; and International Resources Group), ten
Government of Jordan officials, and project beneficiaries. We reviewed documentation provided
by USAID/Jordan, including PMPs, project award documents, monitoring and evaluation plan
reports, the water program and cash transfer agreements, and subsequent modifications. We
also reviewed progress reports and site visit reports.
6
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).

                                                                                               13
                                                                                       Appendix I



To assess whether sustainability was built into the mission’s water resource programs, we
judgmentally selected six activities for review: (1) Water/Wastewater Infrastructure Project, (2)
Water Reuse and Environmental Conservation Project, (3) Water Demand Management, (4)
Community-Based Initiative for Water Demand Management, (5) Construction of Northern
Governorates Water Supply Project, and (6) Information Technology Master
Plan/implementation phase project.

We validated selected activities by (1) conducting site visits to observe reported results and (2)
interviewing mission personnel, implementing partners, and Government of Jordan officials. In
addition, we assessed supervisory review and the level of monitoring conducted by the COTR
or agreement officer’s technical representative at USAID/Jordan by reviewing site visit reports.

Furthermore, we reviewed applicable laws and regulations and USAID policies and procedures
regarding USAID/Jordan’s agreement with the Government of Jordan, including the water
program agreement and modifications; the Foreign Assistance Act of 1961; ADS chapters—201
(“Planning”), 203 (“Assessing and Learning”), 302 (“USAID Direct Contracting”), and 303
(“Grants and Cooperative Agreements to Non-Governmental Organizations”); USAID’s
Acquisition and Assistance Policy Directive 06–05 (“Evaluation and Use of Contractor
Performance Information”); and FAR 36 (“Construction and Architect-Engineer Contracts”) and
42 (“Contract Administration and Audit Services”).




                                                                                               14
                                                                                      Appendix II



MANAGEMENT COMMENTS 


OFFICE OF THE DIRECTOR

TO:    	       Jacqueline Bell, RIG/USAID/Cairo

FROM: 	        Beth S. Paige, Mission Director /s/

SUBJECT:	      Mission Response to Audit of USAID/Jordan’s Design for Sustainability in its
               Water Resources Program (Report No. 6-278-12-00X-P)

USAID/Jordan thanks the RIG/Cairo for the opportunity to comment on your Audit of
USAID/Jordan’s Design for Sustainability in its Water Resources Program (Report No. 6-278-
12-00X-P, revised draft received on November 21, 2011). We agree with your four findings and
seven recommendations. The comments below address technical points in the text supporting
your findings, and describe plans to implement your recommendations.


Findings

USAID/Jordan Did Not Develop Conditions Precedent to Assure Sustainability of its
Water Program Activities.
The Mission accepts this finding. We note, however, that the discussion of capital costs and
maintenance costs (page 6-7) could give the incorrect impression that infrastructure built by
USAID is not sustainable and that these facilities require donor support to operate. A recent
evaluation by Chemonics of the status of operations and maintenance at six water and
wastewater facilities built by USAID in Jordan found that maintenance condition of the facilities
was “excellent” in five cases and “very good” in the sixth. We agree that Jordan’s water and
sanitation systems benefit from significant subsidies, but this is also the case for the large
majority of similar systems around the world and perhaps forty percent of similar systems in the
U.S. (see, for example, http://www.gao.gov/new.items/d02764.pdf), and does not preclude
sustainability. While debt relief from USAID and budget support from other countries indirectly
facilitate water subsidies, it is important to be clear that no donor pays for operations and
maintenance.

USAID/Jordan Did Not Address Agriculture Sector Demand.
The Mission accepts this finding. We note, however, that the wastewater treatment facilities
recently constructed or under construction (Aqaba, As Samara, Wadi Musa, North Shoneh,
Shobak, and Mafraq, at a cost of over $200 million) provide high-quality effluent for agriculture,
shifting demand away from valuable groundwater. USAID policy projects between 2002 and
2007 established the regulations and public confidence needed for wastewater to become a key
part of Jordan’s water budget. We agree that it is imperative that Jordan shift to a more
economically and agriculturally efficient water allocation system, but do not agree with the
statement on p. 10 that unsustainable practices in the agriculture sector make our water supply
and sanitation programs “futile.” Hydrological analysis by the U.S. Geological Survey shows


                                                                                               15
                                                                                      Appendix II


that virtually all of Jordan’s current water sources will remain viable for many decades beyond
the intended lifespan of facilities we have built.

USAID/Jordan Did Not Update the Water Resource Program Performance Management
Plan.
The Mission accepts this finding. The Performance Management Plan is being updated,
consistent with the current strategy (2010-2014), and will be reviewed and revised as necessary
when the Mission’s new Country Development Cooperation Strategy is approved.

USAID/Jordan Did Not Issue Timely Contractor Performance Reports.
The Mission accepts this finding. A remedial program is underway.


Recommendations
The table below shows USAID/Jordan’s agreement with all of your recommendations, a plan of
action to address the issues, and a schedule for meeting each recommendation. Many of your
recommendations will be implemented in the course of preparing our new CDCS. A copy of the
final CDCS, as approved by USAID/Washington, will be provided as documentation of the
review and decisions on the relevant issues. The schedule for the CDCS is as follows:

      January 2012: Preliminary consultations with USAID/Washington.
      April 2012: Draft Results Framework submitted to USAID/Washington.
      July 2012: Final draft CDCS submitted to USAID/Washington.
      August 2012: CDCS approved.


We thank you again for the efforts that you and the RIG staff invested in improving our
programs.




                                                                                                  16
                                                                                         Appendix II



       Recommendation                          Plan of Action                   Schedule
1. We recommend that               USAID/Jordan is preparing a             The target for final
USAID/Jordan review and            Country Development Cooperation         approval of the
revise its water strategy to       Strategy (CDCS) that will set           CDCS is August
determine if the mission could     priorities within and among sectors,    22, 2012 (as
achieve greater success by         including Water Resources and           above).
reprogramming funds to             Environment.
priority projects and document
the resultant revisions.
2. We recommend that               These processes are being               FY 2012
USAID/Jordan implement a           reviewed for potential                  conditions
plan to revise the cash transfer   improvements as the Mission             precedent will be
and conditions precedent           implements the FY 2012 cash             finalized in
program to better leverage         transfer and conditions precedent       January 2012.
sustainable developmental          programs.
results.                                                                   The target for final
                                   USAID/Jordan’s CDCS will include        approval of the
                                   broad revisions to the cash             CDCS is August
                                   transfer program and the related        22, 2012 (as
                                   conditions precedent. The               above).
                                   Ambassador has also requested
                                   this review. The process has
                                   begun with an evaluation of the
                                   conditions precedent underlying the
                                   cash transfer program (in progress)
                                   and a Phase I Rapid Appraisal
                                   under USAID’s Public Financial
                                   Management Risk Assessment
                                   Framework (10/24-11/03/2011).
3. We recommend that               USAID/Jordan’s CDCS will address        The target for final
USAID/Jordan review water          the most effective way to engage        approval of the
resource and environment           the agricultural sector, weighing the   CDCS is August
projects that may address the      potential impact of alternative         22, 2012 (as
use of water by Jordan’s           interventions against costs and the     above).
agriculture sector and             likelihood of success.
document mission decisions to
include or exclude projects
from mission’s portfolio.
4. We recommend that               USAID/Jordan’s CDCS will                The target for final
USAID/Jordan review its water      consider the viability of potential     approval of the
projects and document              new projects that are not fully         CDCS is August
decisions to support water         supported by the GOJ. Current           22, 2012 (as
projects that do not have          projects with significant policy        above).
Government of Jordan (GOJ)         components will seek written
commitment.                        confirmation of support for project     Work plan
                                   goals from MWI as work plans are        approvals are due
                                   developed. If documentation of          in October 2012.
                                   support cannot be obtained, explicit
                                   COTR approval, including a


                                                                                                  17
                                                                                        Appendix II


      Recommendation                         Plan of Action                   Schedule
                                  statement of why success and
                                  sustainability is anticipated without
                                  GOJ support, will be provided as
                                  part of the annual work planning
                                  and approval process. Copies of
                                  MOUs and workplan approvals will
                                  be provided as documentation.
5. We recommend that              For the 2010-2014 country               For the 2010-2014
USAID/Jordan develop and          strategy, USAID/Jordan will             country strategy,
implement a performance           approve a PMP by January 31,            USAID/Jordan will
management plan (PMP) to          2012. A copy will be provided as        approve a PMP by
track achievement of the water    documentation. USAID/Jordan’s           January 31, 2012.
resources assistance              CDCS will include a Results             The target for final
objective.                        Framework, and the Mission will         approval of the
                                  have one year in which to complete      CDCS is August
                                  a PMP, following guidance in ADS        22, 2012 (as
                                  203.                                    above), so the
                                                                          new PMP will be
                                  We note that WRE does have a            completed by
                                  PMP in place to track                   August 2013.
                                  achievements, although it was not
                                  updated in 2010.
6. We recommend that              COTRs were provided with in-            Recommended
USAID/Jordan submit a written     house training so that all are now      training has been
request to USAID’s Office of      registered in the CPARS system          completed or will
Acquisition and Assistance to     and able to work on their reports.      be completed
provide training to mission                                               during FY 2012.
employees on the Contractor       The CPARS training plan for FY
Performance Assessment            2012 was requested from OAA on
Reporting System and              08/22/2011. This training is in the
establish and implement a plan    Individual Development Plans of all
to train responsible              three FSN staff in the RCO. A
employees.                        copy of the RCO training plan is
                                  attached as documentation.

7. We recommend that              RCO set a deadline of 09/13/2011        All CPARS reports
USAID/Jordan’s Regional           for completion of reports by            should be
Contracting Office and            COTRs. Since then, all eight            complete by
Contracting Officer’s Technical   relevant contracts in WRE’s current     January 2012.
Representatives implement a       portfolio have been registered in
plan to complete the required     the CPARS system, of which two
contractor performance            are current, two have been
reports.                          completed, and two have been
                                  initiated. A copy of the current
                                  CPARS status report is attached as
                                  documentation.




                                                                                                 18
                                                                                    Appendix III


   USAID/Jordan’s Water Resources and Environment Sector Cash 

             Transfer Program and Budget Information 


 Table III-1. USAID/Jordan Cash Transfer Program as a Percentage of Total Budget for 

                              FY 2007–2011 (unaudited) 

                                     ($ million) 


                     FY 07           FY 08          FY 09     FY 10         FY 11   Total
  Total Budget        255             561            514       463           362    2,156
  Cash Transfer       116             270            230       194           184     994
  Percentage of
                        45%           48%           45%       42%           51%     46%
  Total Budget

Source: USAID/Jordan.




                                   Table III-2. Revised WRE Budget 

                                      FY 2011–2015 (unaudited) 

                                                ($ million) 


   Fiscal Year      2011      2012   2013    2014    2015   Total
Expected Budget     30        30      30     30       30    150
WRE Pipeline        210                                     210
Expected WRE
Budget                                                      360        360


Revised Budget      25        27      27      27      27    133
WRE Pipeline        210                                     210
Pipeline Transfer   (50)                                    (50)
Revised WRE
Budget                                                      293        (293)

Reduction in
Budget                                                                 67

Percentage
Reduction                                                              18.6%




Source: USAID/Jordan.




                                                                                             19
                                                                                                      Appendix IV


USAID/Jordan’s Water Resources and Environment Sector
Activities as of June 30, 2011 (unaudited)
      Activity Title                  Description                      Implementing          Dates    Estimated
                                                                        Organization                  Budget ($)
Construction and             Construction and construction                                   2009 –     34,799,150
Construction Management      management of East Primary            Design & Construction      2012
Contract of Northern         Water Transmission System,            Management Contract:
Governorates Water Supply    which includes pump stations and      Camp, Dresser & McKee
Project                      a 48 km pipeline to transfer water    Construction: Sorenson
                             from the Mafraq area to the Irbid     Gross
                             area.
Water/Wastewater             Multiple assessments, feasibility     Camp, Dresser & McKee     2010 –     32,200,000
Infrastructure Project       studies, detailed designs and                                    2015
                             construction management of
                             water and wastewater facilities for
                             communities in Amman, Zarqa,
                             Jerash, Ma’in, Tafilah, and
                             elsewhere.
Water Reuse and              Water conservation programs for       AECOM                     2010 –     23,900,000
Environmental Conservation   industry, agriculture, and                                       2015
Project                      landscaping. Demonstration of
                             industrial water management and
                             pollution prevention, site
                             rehabilitation, and institutional
                             capacity building.
Public Action in Water,      Effect behavioral changes among       ECODIT                    2009 –     20,000,000
Energy and Environment       the Jordanian public and decision                                2014
                             makers to increase efficiency in
                             the use of water and energy,
                             handle solid waste properly, and
                             introduce needed policy changes.
Mafraq Wastewater            Design and construction               Consultant: Engicon       2007 –      2,000,000
Treatment Plant Upgrading    supervision services to upgrade       Construction: TBD          2010
                             the Mafraq wastewater treatment
                             plant.
Construction of the Mafraq   Construction of a wastewater          TBD                       2011 –     19,851,463
Wastewater Treatment Plant   treatment plant for Mafraq.                                      2014
Institutional Support and    Technical assistance and capacity     International Resources   2010 –     11,270,252
Strengthening Program        building to enhance financial         Group                      2013
                             management within the water
                             sector, optimize water use and
                             reduce overexploitation of
                             resources. This includes issues
                             such as water valuation, and
                             restructuring and strengthening
                             water sector institutions with a
                             focus on human resource,
                             financial, and facility
                             management.
Water Demand Management      Institute sustainable water           Development               2007 –     10,300,000
                             demand management by building         Alternatives, Inc.         2012
                             the necessary institutional
                             capacity, developing and
                             supporting enforcement of laws
                             and regulations for efficient water
                             use, and demonstrating water
                             demand management initiatives to
                             the public. (The Community-
                             Based Initiative complements this
                             project at the local level.)




                                                                                                                20
                                                                                                          Appendix IV


Community-Based Initiative    Administer a community support         Mercy Corps                 2006 –      5,300,000
for Water Demand              program to engage poor                                              2014
Management                    communities in water demand
                              management by providing small
                              grants to nongovernmental
                              organizations for revolving loans
                              to improve household and
                              community water facilities. It also
                              broadens the capacities of NGOs
                              to work on development issues.
Pollution Prevention for      Provide technical assistance,          CDM International Inc.      2006 –      8,672,302
Environmental Health          training, commodities, and small                                    2011
Project                       grants in support of watershed
                              management. This includes
                              assisting in the implementation of
                              regulations for land use at water
                              supply locations, funding
                              homeowners’ sewer connections,
                              staging compost-farming
                              demonstration plots, launching
                              public information campaigns,
                              managing the watershed in the
                              Aqaba Special Economic Zone,
                              and managing construction of a
                              wastewater main in Suf.
Suf Trunk Sewer Project       Replace about 8.5 km of the Suf        Farhan & Fuad Abu           2010 –      3,851,920
                              sewer to eliminate flooding of         Hamdan Contracting           2011
                              sewer line and accommodate the         Company
                              wastewater flows projected for
                              year 2030.
Wastewater Treatment          Design and construction                Consultant: International   2004 –      8,400,000
Plants for Two Small          supervision of low-cost, low-          Resources Group              2011
Communities                   maintenance central wastewater
                              treatment facilities serving North
                              Shouneh and Shoubak. Also,
                              develop local capacity to operate
                              and maintain the facilities, ensure
                              protection of the environment and
                              public health, and reuse the
                              treated wastewater to generate
                              income and provide a source for
                              irrigation other than groundwater.
Construction of the North     Construction of a plant serving        Gibraltar Contracting Co.   2009 –     11,581,707
Shouneh Wastewater            communities in North Shouneh to                                     2012
Treatment Plant               treat wastewater brought in by
                              trucks.
Construction of the Shoubak   Construction of a plant serving        Gibraltar Contracting Co.   2007 –      4,308,429
Wastewater Treatment Plant    communities in Shoubak to treat                                     2011
                              wastewater brought in by trucks.
Information Technology        Technical assistance to improve        Associates in Rural         2008 –      6,000,000
Master Plan/implementation    information management systems         Development, Inc.            2011
phase project                 for the water sector through
                              training and access to new
                              systems for decision support and
                              daily business practices. This
                              includes three main components:
                              the Information and
                              Communication Technology Unit,
                              Executive Information System,
                              and Collaboration and Web
                              Presence.
Operation and Maintenance     Develop certification programs for     Chemonics International     2008 –      7,413,582
Training Program              water and wastewater treatment                                      2012
                              plant staffs, including training
                              materials, and a Training of
                              Trainers Program. Engage the
                              private sector n a regional training
                              and certification initiative.



                                                                                                                    21
                                                                                                       Appendix IV


Red Sea – Dead Sea Water       A study to examine the technical,   World Bank                 2006 –      1,500,000
Conveyance Feasibility         economic, financial and                                         2011
Study and Environmental        environmental feasibility of
and Social Assessment          pumping seawater from the Gulf
                               of Aqaba to the Dead Sea. A
                               separate study will assess
                               regional and local social and
                               environmental impacts.
Enhancing Water Awareness      Mobilization of grassroots action   Peace Corps                2010 –       243,110
                               for addressing the water scarcity                               2013
                               problem in Jordan and the need
                               for conservation at the rural and
                               municipal levels.
Inter-Agency Agreement with    Technical assistance to enhance     Environmental Protection   2007 –       600,000
the Environmental Protection   the transparency of Government      Agency                      2011
Agency                         of Jordan and private sector
                               partners for improved
                               management of water and
                               wastewater.
                                                                                              TOTAL     212,191,915




                                                                                                                 22
                                                                                 Appendix V


Jordan’s Water and Environment Sector Conditions Precedent for
Cash Transfer Program as of August 2011

   No.                                          Title
    1    The Government of Jordan ensures that developers complete an assessment of
         water supply and demand issues as part of the approval process for all current
         or future economic development zones and major development projects.
    2    Miyahuna awards three contracts to address the issue of nonrevenue water.
         USAID has representation at the steering committee and implementation levels.
    3    The Cabinet of Ministers approves the Environment Fund Bylaw.
    4    The Government of Jordan approves management plans to reduce abstractions
         from the Amman-Zarqa and Azraq groundwater basins to within safe yield limits.
    5    The Cabinet of Ministers approves the Water Demand Management, Irrigation
         Water Allocation and Use, and Irrigation Equipment and System Design policies
         and Article 30 of the Water Allocation and Use policy.
    6    The Ministry of Water and Irrigation(MWI), Ministry of Environment, and Ministry
         of Health prepare and disseminate an emergency response plan for domestic
         water systems incidents.
    7    MWI drafts and launches consultative process to advance the new Water Law.
    8    Miyahuna continues increasing water deliveries in Amman from rationed to
         continuous flow with coverage of 66 districts by 2011 and 231 districts by 2013.
    9    MWI completes a water tariff rate feasibility study on the preferred option for
         determining water tariff rate schedules.
   10    MWI completes a study on water tariff subsidy options.
   11    The Government of Jordan implements a manifest system to manage disposal of
         industrial wastewater.
   12    MWI coordinates a study to assess and recommend actions to improve the
         efficiency of water use in Jordan.
   13    The Minister of Water and Irrigation improves monitoring and enforcement of the
         Groundwater Control Bylaw through the issuance of instructions to the Water
         Authority of Jordan (WAJ) for application and full implementation of the bylaw.
   14    The Minister of Water and Irrigation instructs each regional Groundwater Basin
         Office to prepare annual reports on the impact of implementing the Groundwater
         Control Bylaw on groundwater withdrawals.
   15    The Government of Jordan adopts two revised policies relating to irrigation
         efficiency.
   16    The Government of Jordan, through MWI, directs WAJ to purchase 710 new
         water meters over a 3-year period, to be installed on private non-WAJ wells.
   17    The Ministry of Finance eliminates customs on devices and fixtures that save
         water by improving in residential, construction, industrial, and agricultural water
         use efficiency.
   18    WAJ develops and approves a Wadi Essir or Zara-Ma’in-Zarqa watershed
         protection plan.
   19    MWI, WAJ, and the Ministry of Environment sign a memorandum of
         understanding with a Qualifying Industrial Zone for the promotion of
         Environmental Management Systems for water reuse and improved wastewater
         standards.
   20    A private sector water company is established in Aqaba.


                                                                                          23
                                                                             Appendix V


No.                                            Title
21    MWI develops an action plan to address administrative losses in water systems
      in the Greater Amman and the Northern Governorates.
22    The Ground Water Monitoring and Enforcement Unit at MWI/ WAJ is reorganized
      and strengthened.
23    MWI fully staffs its Demand Management Unit to handle demand management
      aspects of Jordan’s water resources effectively. At a minimum, the unit will have
      a Director, an engineer, and a clerk.
24    MWI will finalize an action plan that identifies the major structural and economic
      policy reforms required for sustainable development of the water sector
      nationwide.
25    The Government of Jordan will revise source water classifications for potable
      water treatment, thereby providing a continuous source of water to the
      Kingdom’s industrial base.
26    MWI will strengthen environmental policy enforcement measures with regard to
      illegal drilling.
27    MWI will increase its revenues by supporting prosecution of persons making
      illegal connections to any WAJ water systems.
28    Procurement for Wadi Mousa Water and Wastewater Management contract has
      been approved by the Government of Jordan, and the Request for Proposals
      has been advertised.
29    MWI has implemented and is charging users wastewater treatment tariffs at least
      12 percent above the 2000 rates for the Greater Amman area.
30    The MWI has announced an increase in wastewater treatment tariffs of at least
      12 percent for the Greater Amman area.
31    MWI has submitted to the Cabinet of Ministers a draft proposal for a new tariff
      structure for irrigation water based on varying water quality or volume.




                                                                                      24
                                                                                           Appendix VI


                       USAID Foreign Assistance Planning
Under the direction of the Director of Foreign Assistance, USAID collaborates with State
Department to formulate a coordinated U.S. Government foreign assistance strategy. At the
field level, USAID missions participate in preparing joint country assistance strategies or may
prepare their own USAID country strategic plans. USAID uses bilateral assistance objectives to
provide comprehensive long-term support to achieve clearly defined foreign assistance results.
The Results Framework is a planning tool that illustrates the cause-and-effect linkages between
outputs, intermediate results, and the assistance objective (the result or outcome) to be
achieved with the assistance provided. In developing an assistance objective plan, the USAID
Mission/Office must take adequate steps to plan and institutionalize a process for collecting
performance information as part of everyday work. This performance information consists of the
indicators that will measure progress towards the intermediate and final results, which are
included in the PMP. See below for the water resources component of USAID/Jordan’s country
strategy results framework approved in March 2010:

   Excerpt of USAID/Jordan 2010-2014 Country Strategy Results Framework

  Overall USAID/Jordan goal: to help Jordan become a more prosperous, democratic
  country, government increasingly accountable to its people, continues to play a central
  role in promoting peace and democracy in the Middle East, and is an active participant
  in the world economy.




         Assistance Objective 2:        Water Resources Management is Enhanced.
           Intermediate Result 2.1: Adaptive Capacity of the Water Sector is Increased.

         Intermediate Result 2.2: Management of Water Resources is More Sustainable.





                                    Illustrative Indicators:
       Increased awareness of water issues
       Improved water use practices among the general public and employees of Government
        of Jordan agencies
       Community residents have better tools to effectively participate in decision-making
       Approval and implementation of a policy and legal framework for overall water sector
        reform is underway
       Water sector institutions are restructured, employees have enhanced skills, and the
        organizations are providing improved service



Excerpt from USAID/Jordan’s 2010–2014 Country Strategy Results Framework, approved March 2010.




                                                                                                   25
                                                                                                                Appendix VII


Status of USAID/Jordan's Water Resources and Environment Sector
Contractor Performance Reports as of June 30, 2011

                                                         Program Start     Required Contractor
       Activity Title             Contractor                 Date          Performance Report                 Status
Construction
Management of Northern            CDM                                       September 2009 -
                                                     September 2009                                       Not Completed
Governorates Water          International, Inc.                             September 2010
Supply Project
Water/Wastewater                  CDM
                                                           May 2010        May 2010 - May 2011            Not Completed
Infrastructure Project      International, Inc.
Water Reuse and
                                                                         None required as of June   None required as of June 30,
Environmental                       AECOM                 August 2010
                                                                                30, 2011                       2011
Conservation Project
                                                                         March 2007 – March 2008            Completed
                                                                         March 2008 – March 2009          Not Completed
Water Demand                     Development
                                                          March 2007
Management (IDARA)              Alternatives, Inc.                       March 2009- March 2010           Not Completed

                                                                         March 2010 – March 2011          Not Completed

Information Technology                                                       November 2008 -
                                                                                                            Completed
Master                                                                       November 2009
                                      ARD                November 2008
Plan/Implementation                                                          November 2009 -
Phase Project                                                                                             Not Completed
                                                                             November 2010
                                                                          June 2006 – June 2007             Completed
                                                                          June 2007 – June 2008             Completed
Pollution Prevention for    Camp, Dresser &
Environmental Health              McKee                    June 2006      June 2008 – June 2009             Completed
Project                     International, Inc.
                                                                          June 2009 – June 2010           Not Completed
                                                                          June 2010 – June 2011           Not Completed
                                                                          June 2004 – June 2007             Completed
                                                                          June 2007 – June 2008             Completed
Wastewater Treatment
                              International
Plants for Two Small                                       June 2004      June 2008 – June 2009           Not Completed
                            Resources Group
Communities
                                                                          June 2009 – June 2010           Not Completed
                                                                          June 2010 – June 2011           Not Completed
                                                                          May 2008 – May 2009               Completed
Operation and
                               Chemonics                                  May 2009 – May 2010             Not Completed
Maintenance Training                                       May 2008
                            International, Inc.
Program
                                                                          May 2010 – May 2011             Not Completed

Public Action in Water,                                                     September 2009 -
                                    ECODIT           September 2009                                       Not Completed
Energy, and Environment                                                     September 2010
Institutional Support and     International                              None required as of June   None required as of June 30,
                                                         November 2010
Strengthening Program       Resources Group                                     30, 2011                       2011
                             
                                                                         Completed                               8
                                                                         Not Completed                          14
                                                                         TOTAL                                  22




                                                                                                                             26
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
